OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/UGANDA’S
PEPFAR-FUNDED ACTIVITIES
FOR THE PREVENTION OF
TRANSMISSION OF HIV
AUDIT REPORT NO. 9-000-10-008-P
June 15, 2010




WASHINGTON, DC
Office of Inspector General


June 15, 2010

MEMORANDUM

TO:                  USAID/Uganda Mission Director, David Eckerson

FROM:                IG/A/PA Director, Steven H. Bernstein [Michael W. Clinebell for] /s/

SUBJECT:             Audit of USAID/Uganda’s PEPFAR-Funded Activities for the Prevention of
                     Transmission of HIV (Report No. 9-000-10-008-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report in finalizing the audit report and have included your response in
appendix II of the report.

The report contains four recommendations for your action. Based on an evaluation of
management comments, management decisions have been reached for all four
recommendations. Determination of final action for these recommendations will be made by the
Audit, Performance and Compliance Division upon completion of the planned corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov/oig
CONTENTS
Summary of Results.….……….……………..………………………………………………..1

Background………….…...……….…………………………………………………………….3

Audit Objective…………..…..……...……………………………………………………………5

Audit Findings……………………....………………………………………………………..…6

 USAID/Uganda Cannot Track or Report Progress Toward Prevention
 Goals…....……...….………………………………………………………...………….....….7

 USAID/Uganda Is Not Consistently Setting Performance Targets for
 Partners..……...…………………………………………………………..…………….…….9

 USAID/Uganda Is Not Validating Partner Reporting Through Data Quality
 Assessments.…….……...…………………………………..………….………………......10

Evaluation of Management Comments………..…………..……………………………...12

Appendix I – Scope and Methodology………..……………..…………….………….…..14

Appendix II – Management Comments………………..……………………………….....16

Appendix III – Indicator Results………..………………..…………………………………18
SUMMARY OF RESULTS
The President's Emergency Plan for AIDS Relief, or PEPFAR, was signed into law on
May 27, 2003, under the United States Leadership Against HIV/AIDS, Tuberculosis, and
Malaria Act and committed $15 billion over 5 years for combating human
immunodeficiency virus/acquired immunodeficiency syndrome (HIV/AIDS) in the
developing world. The Tom Lantos and Henry J. Hyde United States Global Leadership
Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act, signed on July 30,
2008, extended PEPFAR for 5 more years and committed another $48 billion (page 3).

During the first phase of PEPFAR, the U.S. State Department’s Office of the Global
AIDS Coordinator recommended that the 15 focus country teams 1 devote 20 percent of
total PEPFAR funding to prevention efforts, with the goal of 7 million infections
prevented by 2010. USAID/Uganda's budget for prevention was $24.7 million in fiscal
year (FY) 2008 and $25.4 million in FY 2009, with the country goal of preventing
165,000 infections during the first 5 years of PEPFAR (page 3).

USAID/Uganda’s activities for preventing sexual transmission of HIV have contributed to
PEPFAR goals. USAID/Uganda’s programs have reached millions of individuals with
messages promoting abstinence, being faithful, and other methods of preventing
HIV/AIDS transmission, such as condom usage. Additionally, in accordance with a key
PEPFAR principle, USAID/Uganda’s program to prevent sexual transmission of HIV
aligns with Uganda’s national HIV/AIDS strategy (page 6).

However, after 6 years and $116.4 million spent since the start of PEPFAR, 2
USAID/Uganda cannot demonstrate how much progress it has made in preventing
infections and reducing the incidence of HIV. Thus, the mission has not been able to
reliably demonstrate progress toward achieving assistance objectives, as required by
USAID policy. This inability is attributable to several causes:

    •   The Office of the Global AIDS Coordinator is responsible for estimating the
        number of infections prevented in each country toward the total PEPFAR goal of
        7 million; however, results will not be available until 2012—2 years after the end
        of PEPFAR.

    •   The Ugandan Ministry of Health carries out population-based surveys with
        assistance from USAID/Uganda and the PEPFAR country team. These surveys,
        a reliable way to measure change in preventive behaviors, depend on the
        cooperation of the Ugandan Government, and the last survey was conducted in
        2005.

    •   Limited definitive research exists to support which interventions are most
        effective in preventing sexual transmission of HIV.

1
  PEPFAR’s 15 focus countries are Botswana, Côte d’Ivoire, Ethiopia, Guyana, Haiti, Kenya,
Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia.
2
  The amount $116.4 million reflects field and central funding for the prevention program areas of
“abstinence,” “be faithful,” and “other sexual prevention” across FY 2004–9.



                                                                                                1
   •   The Office of the Global AIDS Coordinator sets output-level indicators on which
       the PEPFAR country team reports, however, infections prevented cannot be
       determined based on the achievement of output targets.

Though these circumstances are outside USAID/Uganda’s control, in order to better
demonstrate impact, the mission needs to devote more time and attention to the
monitoring, oversight, and reporting of its sexual transmission prevention activities than it
has done in the past (pages 6 and 7). Specifically:

   •   Performance management indicators are not being reported frequently enough to
       track incremental progress toward long-term goals (page 7).
   •   Inconsistent target setting for implementing partners makes it difficult to evaluate
       performance (page 9).
   •   Data quality assessments for sexual transmission prevention activities are not
       being performed (page 10).

The report recommends that USAID/Uganda:

   •   Develop and implement a strategy, in conjunction with the Centers for Disease
       Control and Prevention and the PEPFAR Coordinator’s Office, to support and
       encourage the Ugandan Ministry of Health to produce regular reporting of clinical
       and surveillance data (page 8).

   •   Document a plan to collect data in key regions of the country with significant
       sexual transmission prevention activity, in the absence of host country data
       (page 8).

   •   Work closely with the PEPFAR Coordinator’s Office and other U.S. Government
       implementing agencies to finalize and implement a terms of reference document
       with guidelines to improve target setting within the PEPFAR Prevention Working
       Group (page 10).

   •   Develop and implement a data quality assessment schedule for each
       implementing partner reporting on sexual transmission prevention indicators that
       are reported annually or externally (page 11).

USAID/Uganda agreed with all four recommendations and presented plans to implement
the recommendations by October 30, 2010. Based on an evaluation of management’s
response to the draft report, management decisions have been reached on these
recommendations (page 12).

Management comments are presented in their entirety in appendix II (pages 16-17).




                                                                                           2
BACKGROUND
The President’s Emergency Plan for AIDS Relief (PEPFAR) was launched 6 years ago
in response to the epidemic engulfing many parts of the developing world. Its
authorizing legislation, the United States Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Act, was signed into law on May 27, 2003, and committed $15 billion for
prevention, treatment, and care for people afflicted or affected by human
immunodeficiency virus/acquired immunodeficiency syndrome (HIV/AIDS). On July 30,
2008, Congress signed into law the Tom Lantos and Henry J. Hyde United States Global
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008,
which extended PEPFAR for 5 more years and committed another $48 billion.

The Office of the Global AIDS Coordinator, which reports directly to the U.S. Secretary
of State as part of the U.S. Department of State, sets overall goals for the 15 PEPFAR
focus countries. 3 For the first 5 years, the Office of the Global AIDS Coordinator set an
overall PEPFAR goal of 7 million infections prevented by 2010. Uganda specifically had
the goal of 165,000 infections prevented in the first 5 years. Additionally, the Office of
the Global AIDS Coordinator gives guidance on the use of PEPFAR funds. During the
first 5 years, the office recommended that focus country teams devote 20 percent of total
PEPFAR funding to prevention, with a required allocation of 33 percent of prevention
funding to abstinence and being faithful programs and the remaining amount,
approximately 66 percent, to other prevention programs.

The U.S. Government agencies that make up the PEPFAR country team are then
collectively responsible for meeting performance targets and reporting aggregated
indicator data twice a year to the Office of the Global AIDS Coordinator. The PEPFAR
country team in Uganda is made up of U.S. Government agencies including USAID; the
Departments of State, Defense, and Health and Human Services (including the Centers
for Disease Control and Prevention); and the Peace Corps. However, USAID and the
Centers for Disease Control and Prevention specifically carry out the bulk of the sexual
transmission prevention activity in Uganda.

USAID/Uganda’s prevention portfolio comprises bilateral and centrally funded and
managed activities that are linked to treatment and care activities to provide a continuum
of care. USAID/Uganda received $24.7 million in 2008 and $25.4 million in 2009,
representing 81 percent of the PEPFAR country team’s total funding for sexual
transmission prevention during this period. (See figure 1 for USAID/Uganda’s PEPFAR
Activities from 2004 to 2009.)




3
 PEPFAR’s 15 focus countries are Botswana, Côte d’Ivoire, Ethiopia, Guyana, Haiti, Kenya,
Mozambique, Namibia, Nigeria, Rwanda, South Africa, Tanzania, Uganda, Vietnam, and Zambia.



                                                                                        3
                  Figure 1. PEPFAR Funding for USAID's Sexual Transmission
                            Prevention Activities in Uganda, 2004-09
                                          ($ millions)
             30
             25
             20                                                    10.2        10.4
                                                       8.8
      $M M




             15                            6.6
                              6.1
             10     4.1
                                                       12.5        14.5        15.0
             5      8.3       9.6          10.3
             0
                   2004      2005         2006        2007         2008        2009
                           Abstinence, Be Faithful   Other Sexual Prevention



Uganda has been hailed as a global model in AIDS strategy because of its initial
successes in reducing the HIV prevalence rate. 4 Studies credit a combination of factors
that enabled this result, particularly Government leadership and political openness
initiated by President Museveni’s arrival in 1986 and a multisectoral approach that
included community and faith-based organizations. Another factor was the widespread
dissemination of behavior-change communications that raised awareness and fought
discrimination and stigma while advocating abstinence, faithfulness, and condom use.
According to estimates by the U.S. Census Bureau and the Joint United Nations
Programme on HIV/AIDS (UNAIDS), in the early 1990s, the national HIV prevalence rate
peaked at 15 percent and fell to 6.5 percent by 2004.

However, in recent years, progress in reducing HIV prevalence has reversed or slowed
due in part to people with HIV living longer, owing to the increased use of antiretroviral
drugs and better care and support for patients. Mission officials expect that the
prevalence rate will continue to rise in 2010, by 0.5 to 0.55 percent. Representatives
from USAID/Uganda, the PEPFAR country team, and Ugandan Government officials
also believe that infection rates in Uganda are increasing. 5 Regional studies, such as a
                                                            March 2009 study released by
  Prevention is an essential component of PEPFAR the Uganda AIDS Commission
  and an increasingly critical priority. While treatment is
                                                            using data over a 16-year period
  incredibly important, treatment will not end the
  pandemic. In the absence of an HIV vaccine or cure,       from the rural Masaka district,
  without effective prevention, the world will continue to  also support this trend.        The
  face an ever-growing number of people requiring           study   shows     that   the    HIV
  treatment, and inevitably, more death.… Globally,         prevalence   rate  in  the   district
  sexual transmission remains the primary driver of the     rose from 6.2 percent (1999) to
  epidemic, thus, prevention in this area is essential.     7.7 percent (2004) to 8.0 percent
                                                            (2005). The study attributed the
          Dr. Eric Goosby, Global AIDS Coordinator          rise in HIV prevalence to

4
  The prevalence rate indicates the percentage of the population infected with HIV at a point in
time.
5
  Infection rates, also known as incidence rates, reflect the number of new HIV infections.




                                                                                               4
increased risk-taking behaviors and decreased condom use. Although the results of a
regional study cannot be extrapolated to the entire country, they can be considered
strong indicators of larger trends.

AUDIT OBJECTIVE
This audit was included in the Office of Inspector General’s fiscal year 2009 annual plan
and was conducted to answer the following question:

   •   Have USAID/Uganda’s activities for preventing sexual transmission of HIV
       contributed to overall PEPFAR goals?

 Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       5
AUDIT FINDINGS
The audit found that USAID/Uganda’s activities are contributing to the goals of the
President’s Emergency Plan for AIDS Relief (PEPFAR) for preventing transmission of
human immunodeficiency virus/acquired immunodeficiency syndrome (HIV/AIDS).
However, USAID/Uganda cannot demonstrate how much progress it has made in
preventing HIV infections.

USAID/Uganda’s portfolio of activities for preventing sexual transmission promotes the
“ABC” approach, which is advocated by PEPFAR in all focus countries, and is supported
by studies. For example, a January 2009 study based on data from demographic and
health surveys in four African countries concluded that reducing the number of sexual
partners reduces the risk of HIV transmission. 6 The “ABC” approach is the balanced
promotion of three behaviors that can prevent or reduce the likelihood of sexual
transmission of HIV: “A” for abstinence (or delayed sexual initiation among youth), “B” for
being faithful (or reduction in number of sexual partners), and “C” for correct and
consistent condom use. This approach includes programs aimed specifically at high-risk
groups such as out-of-school youth, displaced postconflict populations, and fishing
communities.

USAID/Uganda reached more than 4 million individuals in 2008 and 6.4 million in 2009
with messages promoting prevention of HIV/AIDS transmission through abstinence
and/or being faithful. Another 1.8 million were reached in 2008 and 2009 with messages
promoting prevention through means other than abstinence or being faithful, such as
condom usage.          Additionally, in accordance with a key PEPFAR principle,
USAID/Uganda’s program to prevent sexual transmission of HIV aligns with Uganda’s
national HIV/AIDS strategy.

However, after 6 years and $116.4 million spent since the start of PEPFAR, 7
USAID/Uganda cannot demonstrate how much progress it has made in preventing
infections—explicitly, reducing the incidence of HIV. Thus, USAID/Uganda has not been
able to reliably demonstrate progress toward achieving assistance objectives, as
required by USAID policy. This is attributable to several causes, which are outside the
mission’s control:

    •   The Office of the Global AIDS Coordinator is responsible for estimating the
        number of infections prevented in each country toward the total PEPFAR goal of
        7 million; however, results will not be available until 2012—2 years after the end
        of PEPFAR.




6
  Vinod Mishra et al., “The Role of Partner Reduction and Faithfulness in HIV Prevention in Sub-
Saharan Africa: Evidence from Cameroon, Rwanda, Uganda, and Zimbabwe,” DHS Working
Papers No. 61, Macro International Inc., Calverton, MD, 2009.
7
  The amount $116.4 million reflects field and central funding for the prevention program areas of
“abstinence,” “be faithful,” and “other sexual prevention” across FY 2004–9.




                                                                                                6
   •   The Ugandan Ministry of Health carries out population-based surveys with
       assistance from USAID/Uganda and the PEPFAR country team. These surveys,
       a reliable way to measure change in preventive behaviors, depend on the
       cooperation of the Ugandan Government, and the last survey was conducted in
       2005.

   •   Limited definitive research exists to support which interventions are most
       effective in preventing sexual transmission of HIV.

   •   The Office of the Global AIDS Coordinator sets output-level indicators on which
       the PEPFAR country team reports, however, infections prevented cannot be
       determined based on the achievement of output targets.

Furthermore, representatives from both USAID/Uganda and the Ugandan Government
agree that prevention was not a high priority during the first 5 years of PEPFAR. Rather,
the focus was on the emergency response to the epidemic and delivering antiretroviral
drugs to people afflicted with AIDS. Accordingly, USAID/Uganda needs to devote more
time and attention to its prevention activities than it has done in the past. In an effort to
do this, Uganda’s PEPFAR country team has already established a task force to
determine how Uganda’s prevention portfolio can better support the reduction of sexual
transmission of HIV. The task force is chartered with reviewing Uganda’s epidemic,
PEPFAR’s response to the epidemic, and best practices and lessons learned in the
country. This analysis will lead to recommendations for the PEPFAR country team.

However, the audit found three additional areas, discussed in detail below, related to
USAID/Uganda’s monitoring, oversight, and reporting of its sexual transmission
prevention activities where improvements are needed.


USAID/Uganda Cannot Track or Report
Progress Toward Prevention Goals

Summary: USAID policy states that missions are responsible for measuring progress
toward foreign assistance objectives. Further, the indicators selected should be practical
and timely. However, the sole milestone indicator for tracking the progress of
USAID/Uganda’s prevention efforts (HIV prevalence among 15- to 19- and 20- to 24-
year-old antenatal clients) could not be reliably reported because the mission could not
obtain the needed data from the Ugandan Ministry of Health for 4 years. This is
because USAID/Uganda is dependent on the Ugandan Ministry of Health for clinical and
surveillance data and did not consider other methods of data collection. The lack of
timely data in the latter stages of an assistance objective leaves the mission without
important performance information for tracking and reporting results making decisions,
and allocating resources.




                                                                                           7
USAID policy, under Automated Directives System (ADS) 203.3.2 on performance
management, states that USAID missions and their assistance objective teams are
responsible for measuring progress toward the results identified in the planning stage to
achieve foreign assistance objectives. Further, ADS states that collecting and analyzing
performance information is a principal step in performance management, and missions
should be reporting on results in addition to outputs in the later years of an assistance
objective. Finally, ADS 203.3.4.2 calls for indicators that are practical and timely.

USAID/Uganda’s performance management plan (strategic objective 8: “Improved
Human Capacity,” finalized in May 2009) established three indicators that measure
USAID/Uganda’s progress in preventing new HIV infections. Two of the indicators
established under this plan, “Reported condom use with a non-regular sexual partner”
and “HIV incidence,” are longer-term indicators that are not reported frequently enough
to be useful for tracking progress toward goals. To measure progress toward a desired
outcome over a shorter period, milestone indicators need to be used. According to the
plan, milestone indicator data should be collected and available every year. However,
USAID/Uganda was unable to collect and report data for the sole milestone indicator,
“HIV prevalence among 15-19 and 20-24 year old antenatal clients,” on an annual basis.

This occurred because USAID/Uganda is dependent on the Ugandan Ministry of Health
for the clinical and surveillance data needed to report on this indicator. The mission
stated that the Centers for Disease Control and Prevention has a contractual agreement
with the Ministry of Health and is responsible for managing surveys collaboratively with
the other U.S. Government agencies on the PEPFAR country team. However, the
Ugandan Government had not released sexual transmission prevention indicator data of
any kind since 2004—until it released the “HIV/AIDS Epidemiological Surveillance
Report 2005-07” in November 2009, which still showed no definitive trend in HIV
prevalence rates over the 3-year period studied (2005-2007). In spite of this limitation,
USAID/Uganda did not gather relevant data through other methods, such as lot quality
assurance sampling, a cost-effective tool used to rapidly gather information for
monitoring and evaluation. This sampling method entails administering interviewer-led
questionnaires to randomly selected households in each district until a 95-percent
confidence level has been achieved. This method assists in measuring coverage of key
prevention indicators, can identify gaps in performance, and can also help to enhance
the capabilities of staff in the use of information for planning and decision making.

Without timely data to track progress, it becomes difficult to determine how effective
USAID/Uganda’s activities are. According to an HIV/AIDS specialist at the mission, in
effect, HIV/AIDS prevention programming in the country was based on anecdotal data.

To address this matter, this audit makes the following recommendations:

   Recommendation 1: We recommend that USAID/Uganda develop and
   implement a strategy, in conjunction with the Centers for Disease Control and
   Prevention and the PEPFAR Coordinator’s Office, to support and encourage the
   Ugandan Ministry of Health to produce regular reporting of clinical and
   surveillance data.

   Recommendation 2: We recommend that USAID/Uganda, in the absence of
   host country data, document a plan to collect data in key regions of the country
   with significant sexual transmission prevention activity.


                                                                                       8
USAID/Uganda Is Not Consistently Setting
Performance Targets for Partners
Summary: According to USAID policy, missions are accountable for their targets, which
should be ambitious but achievable. However, USAID/Uganda cannot explain how the
target for its sole milestone indicator was set, and results for the six sexual transmission
prevention indicators reported to the Office of the Global AIDS Coordinator in 2008 and
2009 were either significantly over or significantly under targets. This is due to a lack of
guidance and focus on target setting. As a result, it is difficult to evaluate performance
and assess reported results, impeding the mission’s ability to make decisions and
allocate resources based on performance data.

Performance targets are a critical part of managing for results. ADS 203.3.4.5 states
that missions should be willing to be held accountable for targets, and that targets
should be ambitious but achievable given USAID and other donor inputs. As stated in
USAID’s Performance Monitoring and Evaluation TIPS No. 8, “Establishing Performance
Targets,” once a program is underway, targets serve as guideposts for judging whether
progress is being made on schedule and at the levels originally envisioned.

Implementing partners propose targets for sexual transmission prevention programs
during the annual country operational planning process. USAID/Uganda, through the
interagency PEPFAR Prevention Working Group, approves these indicator targets.
However, in fiscal year (FY) 2008 results for USAID/Uganda’s programs reporting on
sexual transmission prevention indicators were mixed. (See appendix III for indicator
targets and results.) Although the variances between results and targets were smaller
in FY 2009 than they were in the previous year, two indicators still had a greater than 20
percent variance. Officials provided several reasons why results may differ greatly from
targets, 8 but this pattern suggests that USAID/Uganda is not setting consistent targets
for implementing partners.

Mission officials affirmed that the target-setting process can be so time-consuming and
the working groups that oversee the process so short-staffed that a close review of
targets proposed by partners is not always possible under the current structure. In
addition, mission officials stated that the target for HIV prevalence in their performance
management plan was inaccurate, but they could not explain why this occurred. These
observations are corroborated by the April 2009 prevention portfolio review in which
USAID/Uganda cited target setting as a challenge in multiple program areas.

To address these challenges, USAID/Uganda drafted a terms of reference document
that included guidance to the interagency PEPFAR Prevention Working Group, which is
cochaired by USAID, to oversee target setting for implementing partners every year
during preparation of the country operational plan. This document outlined the roles,
responsibilities, and operations of the PEPFAR country team. However, this document
was drafted over 3 years ago and never finalized.

8
  Officials cited several reasons why indicator results may differ from indicator targets: new
partners often underestimate the time needed to start a program, and they propose overly
ambitious first-year targets; sometimes targets are based on inaccurate or incomplete
information; or a change in methodology for computing indicator data may have occurred.




                                                                                            9
With inconsistent target setting, it becomes difficult to interpret results to evaluate
performance, thereby impeding the mission’s ability to make decisions and allocate
resources based on performance data. For example, USAID/Uganda’s 2008 sexual
transmission prevention results were subpar for key indicators that measured the
number of individuals reached with prevention messages. (See appendix III.) However,
the inconsistently set targets hampered USAID/Uganda’s ability to make effective
performance-based decisions and to adjust sexual transmission prevention
programming.

To address this matter, this audit makes the following recommendation:

   Recommendation 3: We recommend that USAID/Uganda work closely with the
   PEPFAR Coordinator’s Office and other U.S. Government implementing
   agencies to finalize and implement a terms of reference document that includes
   operational guidelines for target setting within the PEPFAR Prevention Working
   Group.


USAID/Uganda Is Not Validating
Partner Reporting Through
Data Quality Assessments
Summary: USAID/Uganda did not conduct data quality assessments on reported
indicator data relevant to sexual transmission prevention of HIV, contrary to USAID
policy and Office of the Global AIDS Coordinator guidance. Data quality assessments
were not performed because of limited resources and other priorities. As a result,
USAID/Uganda lacked reliable data to monitor partner performance, which impeded the
mission’s ability to carry out its sexual transmission prevention activities effectively.

For performance data to be useful in managing for results and credible reporting,
ADS 203.3.5.1 states that USAID missions should ensure that performance data for
each assistance objective meet the data quality standards of validity, integrity, precision,
reliability, and timeliness. Additionally, ADS 203.3.5.2 states that data reported to
Washington, DC, or externally on agency performance must have had a data quality
assessment within the 3 years before submission.

Additionally, the Office of the Global AIDS Coordinator provided country teams with
guidance addressing the importance of data quality that stated, “Quality data are needed
to inform the design of country operational plan activities, to monitor partner
performance, and to set reasonable and achievable targets. In order for targets to be
meaningful and realistic, the quality of the data on which they are based must meet
minimum standards of acceptability.” In addition, the guidance cautions that prevention
data are particularly prone to double counting and advises added oversight.

However, of the 11 bilateral implementing partners working with USAID/Uganda in the
area of sexual transmission prevention, 3 are overdue for a data quality assessment.
Further, data quality assessments that USAID/Uganda did conduct within the last 3
years were incomplete. USAID/Uganda assessed indicator data for palliative care,
treatment, counseling and testing services, and prevention of mother-to-child
transmission; however, the mission did not include a review of the six sexual


                                                                                         10
transmission prevention indicators. For example, during FY 2008–9, USAID/Uganda
assessed of the quality of data quality from an implementing partner working in sexual
transmission prevention, but excluded relevant sexual transmission prevention data
related to the partner’s behavior-change activities.

When a mission does not allocate time and resources to data quality during the planning
process, in an environment where priorities compete for limited resources, data quality
will often be overlooked. According to the mission, data quality assessments were not
performed on sexual transmission prevention data because of limited resources.
Although the PEPFAR country team has contracted with a partner to carry out
monitoring and evaluation activities for PEPFAR data, two assessments scheduled for
2009 were rescheduled so that staff could perform other tasks.

Monitoring and oversight of partner performance is critical to strengthen the reliability of
reported data, particularly in prevention. Without data quality assessments, the mission
does not have reliable data to monitor partner performance. The lack of reliable data
impedes the mission’s ability to carry out its activities effectively.

To address this matter, this audit makes the following recommendation:

   Recommendation 4:         We recommend that USAID/Uganda develop and
   implement a data quality assessment schedule for each implementing partner
   reporting on sexual transmission prevention indicators that are reported annually
   or externally.




                                                                                         11
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Uganda agreed with the four audit
recommendations.         Based on an evaluation of management’s comments, a
management decision has been reached on each recommendation, and a determination
of final action is pending.

Recommendation 1: The mission agrees with the recommendation to develop and
implement a strategy to support and encourage the Ugandan Ministry of Health to
produce regular reporting of clinical and surveillance data. Specifically, the mission will
work closely with the Centers for Disease Control and Prevention and the PEPFAR
Coordinator’s Office and use existing interagency coordination, planning, and
management structures for this effort. Although management’s response indicates that
the implementation of this strategy is effective immediately, a subsequent review of
documentation indicated that the mission has not yet implemented its strategy. The
mission’s revised target date for final action is July 31, 2010. A management decision
has been reached on this recommendation.

In response to management comments, we have updated the report to make explicit
reference to both clinical and surveillance data.

Recommendation 2: The mission agrees with the recommendation to document a plan
to collect data in key regions with significant prevention activity.         Specifically,
USAID/Uganda, in conjunction with an interagency working group, will develop an
operational strategy that includes result-based objectives, activities, and a monitoring
and evaluation plan for all implementing partners. A management decision has been
reached, and the target date for final action is October 30, 2010.

Recommendation 3: The mission agrees with this recommendation, which was
modified by the audit team to incorporate management’s proposed changes.
USAID/Uganda will work closely with the PEPFAR Coordinator’s Office and other U.S.
Government implementing agencies to finalize and implement a terms of reference
document that includes operational guidelines for target setting within the PEPFAR
Prevention Working Group. Although management’s response indicates that the terms
of reference document would be finalized by April 30, 2010, a subsequent review of
documentation indicated that target setting procedures for all PEPFAR working groups
had not yet been incorporated into the terms of reference document. The mission’s
revised target date for final action is July 31, 2010. A management decision has been
reached on this recommendation.




                                                                                        12
Recommendation 4: The mission agrees with this recommendation. USAID/Uganda is
in the process of awarding a new monitoring and evaluation contract for data
management and reporting, and will approve a detailed work plan with required data
quality assessment schedules. Although management’s response indicates that the
target date for final action is August 15, 2010, based on subsequent discussion, the
mission revised its target date to July 31, 2010. A management decision has been
reached on this recommendation.

The mission’s written comments on the draft report are included in their entirety as
appendix II in this report (see pages 16-17).




                                                                                 13
                                                                                    APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that the
audit team plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for findings and conclusions based on our audit objective.
The objective of the audit was to determine whether USAID/Uganda’s activities for
preventing sexual transmission of human immunodeficiency virus/acquired
immunodeficiency syndrome (HIV/AIDS) have contributed to the goals of the President’s
Emergency Plan for AIDS Relief (PEPFAR).

The audit fieldwork was performed from August 2009 to February 2010 at
USAID/Uganda and USAID/Washington. The audit examined activities performed
during fiscal year (FY) 2008 and FY 2009. We analyzed USAID/Uganda’s FY 2008 and
FY 2009 prevention targets and results for bilateral partners that report on sexual
transmission prevention indicators. The partners received a total of nearly $31 million in
funding for the 2 years.

Criteria used to assess USAID/Uganda’s prevention activities included guidance from
the Office of the Global AIDS Coordinator, the Government of Uganda’s National HIV
and AIDS Strategic Plan, the PEPFAR Five-Year Strategy for Uganda, USAID’s
Automated Directives System, mission orders, various studies and reports on the AIDS
epidemic in Uganda, and Government Accountability Office reports. We also reviewed
previous Office of Inspector General reports, including the 2005 Office of Inspector
General audit of USAID/Uganda’s implementation of PEPFAR, noting that the one
related recommendation had been implemented. 9 We visited and observed 4 of the
mission’s 11 bilateral implementing partner projects to help us determine whether
USAID/Uganda’s activities for sexual transmission prevention of HIV/AIDS have
contributed to PEPFAR goals. However, because of our limited review, activity results
cannot be projected to the entire population of USAID/Uganda’s sexual transmission
prevention activities.

Finally, we performed a risk assessment based on a recent Federal Managers’ Financial
Integrity Act report, a review of reporting documentation, and interviews with mission
staff. We also considered and reviewed USAID/Uganda’s system of internal controls as
it pertained to sexual transmission prevention activities.

Methodology
To answer the audit objective, we considered USAID/Uganda’s demonstrable
contribution toward the PEPFAR Uganda goal of 165,000 infections prevented by 2010.
We also examined target setting and performance reporting, monitoring and oversight of


9
    Office of Inspector General audit report number 4-617-05-006-P, issued on August 1, 2005.




                                                                                                14
                                                                              APPENDIX I


implementing partners, and USAID/Uganda’s adherence to and support of the national
strategy for combating HIV/AIDS.

In Uganda, we interviewed personnel from USAID/Uganda and the PEPFAR country
team. We also met with the head of the Uganda AIDS Commission, the Ugandan
Government agency responsible for coordinating the HIV/AIDS response. In addition,
we interviewed representatives of 4 of the mission’s 11 bilateral implementing partners
and selected the following activities for detailed review. The four partners received $18
million in 2008 and accounted for 59 percent of USAID’s bilateral funding for sexual
transmission prevention activities.

     •   Northern Uganda Malaria AIDS Tuberculosis Programme, implemented by John
         Snow, Inc.
     •   Ugandan Initiative for TDMS and PIASCY, 10 implemented by Creative Associates
         International, Inc.
     •   AFFORD, implemented by Johns Hopkins University
     •   Health Initiatives in the Private Sector, implemented by Emerging Markets

We visited project sites in the Gulu, Nakasongola, and Wakiso districts to support
reported results. At these sites we reviewed participant lists for training and outreach, as
well as records management at various levels. Additionally, we interviewed officials from
the Monitoring and Evaluation of Emergency Plan Progress project, which collects,
reports, and validates data from HIV/AIDS activities and partners funded under PEPFAR
for the country team.

We reviewed relevant documents, including the PEPFAR country team’s 5-year strategic
plan and Uganda’s national strategic plan. The mission provided country operational
plans and indicator reporting documents. We also reviewed reports and studies on the
HIV/AIDS epidemic in Uganda issued by U.S. Government agencies, the Ugandan
Government, and other organizations, such as UNAIDS.

In Washington, we interviewed subject matter experts from the Office of the Global AIDS
Coordinator; U.S. Census Bureau; USAID Bureau of Global Health, Office of HIV/AIDS;
and USAID Bureau of Management, Office of Management Policy, Budget and
Performance.




10
   Teacher Development and Management System and Presidential Initiative on AIDS Strategy
for Communication to Youth.




                                                                                         15
                                                                           APPENDIX II



MANAGEMENT COMMENTS



MEMORANDUM

DATE:          April 9, 2010

TO:            Steven H. Bernstein, IG/A/PA

FROM:          Elise Ayers, SO8 Team Leader (AOO) /s/

THRU:          Amr H. Elattar, Mission Controller (AMO) /s/


SUBJECT: Comments on IG/A/PA’s Draft Audit of USAID/Uganda’s PEPFAR-
Funded Activities for the Prevention of Transmission of HIV (Report No. 9-000-10-00X-
P)

Dear Steven,

The purpose of this transmission is to communicate USAID/Uganda’s general comments
regarding the recommendations for the subject report.

Recommendation No. 1: We recommend that USAID/Uganda develop and implement a
strategy, in conjunction with the Centers for Disease Control and Prevention and the
PEPFAR Coordinator’s Office, to support and encourage the Ugandan Ministry of Health
to produce regular reporting of clinical data.

Comment: The Mission agrees with this recommendation. Please note that the reference
to clinical data should include clinical and surveillance data. The MOH reports regularly
on clinical service delivery data through the Health Management Information System.
The challenge in this case is the routine reporting of surveillance data from antenatal
clinic (ANC) surveys. USAID/Uganda will work closely with CDC and the PEPFAR
Coordinator’s Office to support the MOH to develop routine ANC surveillance reports
for USAID and other HIV/AIDS partner reporting requirements. U.S. Government
(USG)/Uganda PEPFAR interagency coordination, planning and management structures
will be used specifically for this purpose effective immediately.




                                                                                      16
                                                                            APPENDIX II


Recommendation No. 2: We recommend that USAID/Uganda, in the absence of host
country data, document a plan to collect data in key regions of the country with
significant sexual transmission prevention activity.

Comment: The Mission agrees with this recommendation. The USG/Uganda interagency
Transmission Working Group (TWG) recently developed recommendations for
improving the sexual transmission prevention portfolio. A key component of our
response to TWG recommendations is to develop an operational strategy that reflects
changes in the USG prevention portfolio. The strategy will include result-based
objectives, activities and a monitoring and evaluation plan for all implementing partners.
An operational strategy is expected no later than October 30, 2010.

Recommendation No. 3: We recommend that USAID/Uganda finalize and implement a
Terms of Reference document that includes operational guidelines for target setting
within the PEPFAR Prevention Working Group.

Comment: The Mission agrees with this recommendation with modification.
Recommendation should read: ….USAID/Uganda work closely with the PEPFAR
Coordinator’s Office and other implementing USG agencies to finalize and implement….
The final vetting process is currently underway and will be completed by April 30, 2010.

Recommendation No. 4: We recommend that USAID/Uganda develop and implement a
data quality assessment schedule for each implementing partner reporting on sexual
transmission prevention indicators that are reported annually or externally.

Comment: The Mission agrees with this recommendation. The award of a new
monitoring and evaluation contractor for management of interagency PEPFAR data
management and reporting requirements is currently under procurement. A detailed work
plan with required DQA schedules will be approved no later than August 15, 2010.




cc.    Ortencia Nichols, D/Controller
       Ivan Ddungu, S/Financial Analyst



                                                                                       17
                                                                          APPENDIX III



INDICATOR RESULTS
The table below presents (1) the six output indicators established by the Office of the
Global AIDS Coordinator; (2) the targets established by USAID/Uganda in 2009; (3) the
results reported by USAID/Uganda in 2009; (3) a comparison of the 2009 targets and
results, expressed as a percentage; and (4) a comparison of the 2008 targets and
results, expressed as a percentage.

These figures are based on the unadjusted totals reported by USAID/Uganda’s
implementing partners. Aggregated results are unaudited, but limited review was
performed without exception in selected regions for selected programs, as described in
the Scope and Methodology section.

                              USAID Targets and Results
                               (Bilateral Programs Only)

Indicators                                     2009        2009       2009       2008
                                              Target      Result     Percent    Percent
Number of individuals reached through        6,897,675   6,356,956     92.2%      50.6%
community outreach that promotes HIV/AIDS
prevention through abstinence and/or being
faithful
Number of individuals reached through        4,289,530   5,461,099   127.3%       50.4%
community outreach that promotes HIV/AIDS
prevention through abstinence
Number of individuals trained to promote        52,236     48,730      93.3%    131.2%
HIV/AIDS prevention programs through
abstinence and/or being faithful
Number of individuals reached through        2,175,200   1,832,884     84.3%      57.2%
community outreach that promotes HIV/AIDS
prevention through other behavior change
beyond abstinence and/or being faithful
Number of individuals trained to promote        15,560     17,677    113.6%       42.7%
HIV/AIDS prevention programs through other
behavior change beyond abstinence and/or
being faithful
Number of targeted condom service outlets       51,098     61,617    120.6%     203.2%

Note: “Number of individuals reached through community outreach that promotes
HIV/AIDS prevention through abstinence” is a subset of “number of individuals
reached through community outreach that promotes HIV/AIDS prevention through
abstinence and/or being faithful.”




                                                                                  18
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
